October 5, 2020
Via electronic filing and email
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Shinn v. Jensen (No. 20-360)

Dear Mr. Harris:

National Prison Project
915 15th Street, NW
7th floor
Washington, DC 20005
(202) 393-4930
aclu.org
David C. Fathi
Director
Attorney at law*
*Not admitted in DC;
practice limited to
federal courts

Respondents in the above-captioned matter write to request a 60-day
extension of Respondents’ time to file a brief in opposition to the petition for
writ of certiorari, from October 19 to December 18, 2020. The petition for a
writ of certiorari was submitted on September 14, 2020 and docketed on
September 17, 2020.
Respondents seek this extension in light of counsel’s competing
personal and professional obligations. First and foremost, the current public
health emergency related to COVID-19 has forced the closure of and/or
significant restrictions on capacity at each of the offices where Respondents’
counsel normally work. The public health emergency and the natural
disasters in Northern California of wildfire smoke and electrical outages have
also forced closures of schools and child care facilities, which requires
Respondents’ counsel to either care for minor children during this time or
cover for colleagues with child care responsibilities. Meanwhile, in this
context of reduced capacity, counsel for Respondents remain committed to
other upcoming filings.
Previously scheduled personal and professional commitments, as well
as challenges resulting from the COVID-19 public health emergency, the
wildfires in Northern California, and resulting disruptions to professional
and personal life during the initial 30-day response period would make it
difficult for counsel to prepare the response in this case.
Petitioners through counsel have indicated that they object to a 60-day
extension, but do not object to a 30-day extension.
Thank you for your attention to this matter.

Respectfully,
/s/ David C. Fathi
Counsel for Respondents
Shawn Jensen; Stephen Swartz; Sonia Rodriguez; Christina Verduzco; Jackie
Thomas; Jeremy Smith; Robert Gamez; Maryanne Chisholm; Desiree Licci;
Joseph Hefner; Joshua Polson; and Charlotte Wells, on behalf of themselves
and all others similarly situated
cc:

National Prison Project
915 15th Street, NW
7th floor
Washington, DC 20005
(202) 393-4930
aclu.org
David C. Fathi
Director
Attorney at law*
*Not admitted in DC;
practice limited to
federal courts

Nicholas D. Acedo, Counsel for Petitioners
Jeffrey Atkins, Deputy Clerk
Danny Bickell, Deputy Clerk

